 OFFICE OF INSPECTOR GENERAL
CORPORATION FOR NATIONAL AND
     COMMUNITY SERVICE




        Pre-Audit Survey of the
Navajo Nation Foster Grandparent Program
        Grant No. 339W023-21

    OIG Audit Report Number 02-25
            June 14,2002




              Prepared by:

               CNCS OIG
         1201 New York Avenue
         Washington, DC 20525
                                           Pre-Audit Survey of the
                                   Navajo Nation Foster Grandparent Program
                                           Grant No . 339W023-21

                                                       Table of Contents



OVERVIEW OF THE NAVAJO NATION .......................................................................
                                                                                                2

BACKGROUND OF THE FOSTER GRANDPARENT PROGRAM .............................. 3

OBJECTIVES. SCOPE. AND METHODOLOGY ............................................................. 3

RESULTS ............................................................................................................................   4
Office of Inspector General                                                            CORPORATION
1201 New York Avenue, NW
                                                                                       FOR NATIONAL
Washington, DC 20525




   June 14,2002




   Richard Persely, Arizona State Director
   Corporation for National and Community Service
   522 North Central, Room 205A
   Phoenix, AZ 85004-2190

   We performed a pre-audit survey of the Navajo Nation Foster Grandparent Program,
   Grant No. 339W023-21. The primary purpose of this survey was to provide a preliminary
   assessment of:

       The grant awards and terms;
       Findings from the most recent A- 133 audit
       Fiscal or program issues raised by CNCS site visits.

   We were also to report on the recommended scope of additional audit procedures to be
   performed at the Grantee.

   Overview of the Navajo Nation

   The Navajo Nation is located in the Southwest four corners region. It includes portions
   of Arizona, New Mexico, Utah and Colorado. The capital of the Navajo Nation is
   Window Rock, Arizona. The Navajo Nation has a three-branch government system. The
   President and Vice President head the Executive Branch and are elected by popular vote
   of tribal members serving terms of four years. A Chief Justice appointed by the President
   and confirmed by the Navajo Nation Council heads the Judicial Branch. The Navajo
   Nation Council comprises the Legislative Branch and consists of 88 members elected to
   four-year terms.
Background

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended
the National and Community Service Act of 1990, established the Corporation for
National and Community Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative
agreements to State Commissions, nonprofit entities and tribes and territories to assist in
the creation of full and part time national and community service programs. Through
these grantees, members perform service to meet the educational, human, environmental,
and public safety needs throughout the nation, especially addressing those needs related to
poverty. In return for this service, eligible members receive a stipend, accident insurance,
personal liability insurance and automobile insurance, free meals at host institutions and
physical examinations.

The Navajo Foster Grandparent Program services the entire Navajo Reservation, an area
of 27,000 square miles. It reports to the Navajo Area Agency on Aging Department,
which in turn reports to the Navajo Division of Health. Under this grant, Foster
Grandparents at approximately 124 sites, work with teens and children to provide health
services, develop parenting skills, serve children in community day care centers, assist
girls in a youth home and service children with various education and health needs.


Objectives, Scope, and Methodology

The scope of this engagement was to provide an assessment of the grant and site visit
information systems and procedures in place at the State Office for administering its
Foster Grandparent grants and for monitoring fiscal activity. The primary purpose of this
pre-audit survey was to provide a preliminary assessment of:

    The amount, term and grant provisions;
    The results of A- 133 audits
    Results of CNCS State Office Site Visits.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Grantee.
Our survey included the following procedures:

   reviewing the grant award, its provisions, the detailed grant proposal and budget;

   reviewing OMB Circular A- 133 reports and;

   obtaining information from and discussions with CNCS State Offices.

Our procedures were performed in accordance with Government Auditing Standards
issued by the Comptroller General of the United States. We were not engaged to, and did
not, perform an audit of any financial statements, and the procedures described above
were not sufficient to express an opinion on the controls at the Grantee, or on its
compliance with applicable laws, regulations, contracts and grants, or the allowability of
grant costs incurred. Accordingly, we do not express an opinion on any such financial
statements, or on the Grantee's controls or compliance. Had we performed additional
procedures, other matters might have come to our attention that would have been
reported.


Results

Based on the results of the limited procedures performed, we will proceed with an
incurred cost audit of grant project period April 1,2001 through March 3 1,2002. The
decision to audit is based on the following:

    The grant amount is $524,3 15. This is the twenty-first year the Grantee has received
    an award.

    The A-1 33 Audit for Fiscal Year Ended September 30, 1999 resulted in an
    unqualified opinion with no reportable conditions, material weaknesses or material
    noncompliance disclosed. However, reportable audit findings were identified.

    Financial Status Reports (FSRs), Progress Reports and responses to site visits are
    consistently late. The Grantee has been advised of these concerns since at least 1998.

    Site visits report timesheets with one week of estimated time and the appearance of a
    disproportionate allocation of salaries. The Foster Grandparent Program (FGP)
    Director did not review and approve expenditures, and 7 out of 10 vouchers reviewed
    during the site visit revealed unallowable costs treated as allowable expenses. The
    unallowable expenses include $495 of registration fees charged by persons other than
    the FPG Director and unreasonable member recognition costs of $2,035. The last
    indirect rate agreement was executed in 1996.
   Results of Site Visits note no programmatic concerns.

This report is intended solely for the use of the Office of Inspector General and the
Corporation for National and Community Service.



Terry Bathen
Acting Inspector General
Corporation for National and Community Service
Washington, D.C.



Copy to:

Wendy Zenker, Chief Operating Officer
Tess Scannell, Acting Director, CNCS National Senior Service Corps
Kathie Ferguson, Area Manager, Southwest Cluster
James Parker, Director, Southwest Service Center
